U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Sok Bun v. United States of America,
S.Ct.No. 19-1037

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 19,
2020, and placed on the docket on February 19, 2020. The government's response is due on
March 20, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 20, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1037
BUN, SOK
USA

ISHAN K. BHABHA
JENNER & BLOCK LLP
1099 NEW YORK AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-637-6327
IBHABHA@JENER. COM
C. CARLYLE STEELE
C. CARLYLE STREE,LAWYER
16 WHITSETT STREET
GREENVILLE, SC 29601
864-271-4360
CARLYLESTREELE@BELLSOUTH.NET

